WAIVER

SUPREME COURT OF THE UNITED STATES

No. [20-8121

Andy Kejadi Onwuka California

(Petitioner) ¥. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

© _Lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

1 am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

  

ji tally signed by Daniel Re ]
Signature: Daniel Rogers | Dave: 2027 08.23 1110520 07% |

Date: 6/23/21

(Type or print) Name | Daniel Rogers

 

© Mr Om. OM O Miss
Firm California Attorney General |
Address (600 West Broadway, Ste 1800 |
City&State (SanDiego zip [p21 si

Phone (619) 738-9127

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

‘Andy Kejadi Onwuka
ce: |
